Supreme Court, U.S.
FILED

\

MAY 1 h 2020
No.

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

Joseph Peter Garbarini,
Petitioner
v.
Lorie Davis,
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE FIFTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Joseph Peter Garbarini
TDCJ #1754849
McConnell Unit
3001 S. Emily
Beeville, TX 78102

QUESTIONS PRESENTED

Did the Fifth Circuit err in denying a certificate of
appealability on a double jeopardy claim reasoning that I am
procedurally barred when a debate exists between the federal
judges on this issue (i.e. the district court found I am not
barred while a circuit judge, sua sponte, denied the COA
overturning the district court, and another circuit judge
dissented agreeing with the district court that I am not barred)?

Did the Fifth Circuit err in denying a certificate of
appealability on the claims addressing: double jeopardy, a
non-unanimous verdict, due process violations, and
ineffective assistance of counsel? Will the Supreme Court
review the denial of the COA while considering how the Court
can help clarify when an appellant has satisfactorily

shown

that a reasonable juror could disagree with the district
court's decision?

i

TABLE OF CONTENTS
i

Questions Presented

ii

Table of Contents
Table of Authorities .

iii

Opinion Below

1

Jurisdiction

1

Statutory and Constitutional Provisions Involved

2

Statement of the Case

3

Reasons for Granting the Writ
I. The Supreme Court should exercise its supervisory power
and review the Fifth Circuit's denial of a certificate
of appealability where a debate exists between five
federal judges. ........

5

II. Both appellants and the court of appeals would benefit
from additional guidance this Court can provide on what
constitutes a successful argument that a district
court's decision is debatable.
c.

7

• „; *

III. The Supreme Court should exercise its supervisory
power and determine if the Fifth Circuit erred by
denying a certificate of appealability when I have
shown clear and convincing evidence with which a
reasonable juror can argue the district court's
decision is debatable
......
Conclusion

10
16

Appendix (seperate volume)
Report and Recommendation of United States Magistrate Judge
Order of the District Court

......

la
29a

Order of Court of Appeals denying a COA

30a

Order of Court of Appeals on rehearing

33a

ii

TABLE OF AUTHORITIES
Borjan v. State, 787 S.W.3d 52 (Tex.Crira.App. 1990)
Buck v. Davis, 137 S. Ct. 759 (2017)
....
Buxton v. Collins, 925 F.2d 816 (5th Cir$)
California v. Tombetta, 467 U.S. 479 (1984)
Cleotex Corp. v. Catrett, 477 U.S. 317, 106 S. Ct. 2548 (1986)
Jackson v. State, 17 S.W.3d 664 (Tex.Crim.App. 2000)
Jones v. U.S., 119 S. Ct. 2090 (1999)
Miller v. Pate, 386 U.S. 1 (1967)
....
Miller-El v. Cockrel, 537 U.S. 322, 123. Ct. 1029,
154 L. Ed. 931 (2003)
Schacht v. Wisconsin Dep't of Corr.,
175 F.3d 497 (7th Cir. 1999)
....
Schad v. Arizona, 501 U.S. 624 (1991)
U.S. v. Anchondo-Sandoval, 910 F.2d 1234 (5th Cir. 1990)
USS. v. Gallardo-Tapero, 185 F.3d 307 (5th Cir. 1999)
U.S. v. George, 201 F.3d 370 (5th Cir. 2000) ..
U.S. v. Tomblin, 46 F.3d 1369 (5th Cir. 1995) .
U.S. v. Virgen-Moreno, 265 F.3d 276 (5th Cir. 2001)
Washington v. Hofbauer, 228 F.3d 687 (6th Cir. 2000)

14
7
13
15
8
1411
13
7
8
11
14
14
14
14
14
14

STATUTES
28 U.S.C. §1254 .
28 U.S.C. §2253 .
28 U.S.C. §2254 .
U.S. CONST., AMEND V .
U.S. CONST., AMEND VI
U.S. CONST., AMEND XIV
TEX. PENAL CODE §21.02

1
5,9
3
2
2
2
10

iii

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
I, the petitioner, respectfully ask that a writ of certiorari
issue to review the judgment below.
OPINION BELOW
The opinion of the magistrate judge and district judge of
the United States District Coutt

Eastern District of Texas

case #4-16-CV-00198, appears at Appendix la and 29a respectively
and is unpublished.
The order of the Fifth Circuit Court of Appeals denying a
certificate of appealability appears at Appendix 30a and is
unpublished.
JURISDICTION
The United States Court of Appeals decided my case on
December 13, 2019.
The United States Court of Appeals denied a timely petition
for rehearing on March 2, 2020, and".': a copy of the order appears
at Appendix 33a.
The jurisdiction of this Court is invoked under 28 U.S.C.
§1254(1).

1

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
U.S. CONST., AMEND V
No person shall be held to answer for a capital, or otherwise
infamous crime

unless on a presentment of indictment of a Grand

Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb, nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use without
just compensation.
U.S. CONST., AMEND VI
•

In all criminal prosecutions, the accused shall enjoy the

right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shill have been committed;
which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to
be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defence.
U.S. CONST., AMEND. XIV
Section 1. All persons born or naturalized in the United
States, and subject to the jurisdiction thereof^ are citizens
of the United States and of the State wherein they reside.

2

No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
This case arises from a complaint made in May 2010 by
Clarissa Turner, mother of 5-year-old S.T., who was one of my
students during my employment as a kindergarten teacher with the
Plano ISD. On May 19th, Ms. Turner accused me of molesting her
daughter. On May 24th, Robyn Miller, mother of 6-year-old M.P.,
also a student, made a similar accusation. Following a trial,
a jury found me guilty of Continuous Sexual Abuse of a Child and
Sexual Performance by a Child.
After exhausting my state remedies, I filed a motion for
a writ of habeas corpus under 28 U.S.C. §2254 with the United
States District Court. I sought relief by bringing claims of
double-jeopardy, due process, and ineffective assistance of
counsel. The State responded to an order to show cause why my
motion should be denied in which.ithe State argued the double
jeopardy claim was procedurally barred for failure to exhaust
and the remaining claims should be denied. I filed a traverse
in which I argued I exhausted the double jeopardy ground in the
State and demonstrated with sufficient evidence I was entitled
to relief on the remaining grounds.

3

The magistrate judge first found that I was not procedurally
barred on the double jeopardy claim (App. 4a). After review of
each claim however, the magistrate recommended the motion be
denied (App. 27a)( Both the State and I filed objections to the
report and recommendation.
The district judge found the "objections [were] without
merit" and denied the motion for a writ of habeas corpus (App.
29a). I subsequently filed a notice of appeal and a motion for
a COASwith the Fifth Circuit. The State did not appeal.
A circuit judge denied a COA on the double jeopardy claim
ruling I am procedurally barred (App. 31a). I filed a motion for
rehearing. The court again denied a COA, though one judge
dissented stating I was not procedurally barred (App. 36a). Each
judge denied a COA for the other claims without explanation.
I believe I have shown clear and convincing evidence in
support of each claim; enough at least that any reasonable juror
could argue the district court's decision is debatable. Therefore,
I believe the Fifth Circuit erred in denying my COA and I ask
this Court to grant a writ of certiorari.

4

k .

REASONS FOR GRANTING THE WRIT
I. The Supreme Court should exercise its supervisory power and
review the Fifth Circuit's denial of a certificate of
appealability (COA) where a debate exists between 5 federal
judges.
I have raised a claim that my conviction violated my right
against double jeopardy. The State argued that I am procedurally
barred from raising this claim. Both the magistrate judge and
district judgeuruled I am not barred, describing the State's
argument as "without merit" (App. 4a,29a). However the court did
deny the claim on other grounds, and I sought a COA from the
Fifth Circuit.
Circuit Judge Oldham denied a COA on the double jeopardy
claim reraising, sua sponte, this issue of a procedural bar
(App. 31a). On a motion for rehearing, a second judge joined
that opinion, but a third dissented (App. 35a). There are two
important issues I ask this Court to address.
First, whether I am procedurally barred or not, federal law
only requires that I obtain a COA from a (singular) circuit judge
or justice. 28 U.S.C. §2253(c)(l). In this case, Circuit Judge.
Higginson writes that he would grant a COA:
I agree with the Magistrate judge and district court
judge that Garbarini's double-jeopardy claim is not
procedurally barred because he exhausted it before the
state habeas court. ...
Because Garbarini's application for a COA on his double­
jeopardy claim is not procedurally barred, I would
consider the merits of the application.
(App. 35a,36a)

5

Had my motion for a COA originally gone before Judge
Higginson instead of Judge Oldham, the motion would have been
granted on the double jeopardy claim. If Judge Higginson would
grant the COA, and I only need a single circuit judge to do so,
why was a COA not issued?
Second, can a circuit judge deny a COA because he disagrees
with a decision of the district court - even when neither party
has challenged that decision? The State had an opportunity to
file an appeal or respond to my motion for a COA and chose not
to. I did not raise the issue of a procedural bar.
Judge Oldham is effectively reasserting and arguing the
State's position for them, simultaneously finding in their favor
and denying me to opportunity to brief and argue I am not
procedurally barred. This violates the accepted and usual course
of judicial proceedings.
Because it ties in with reason II, I must point out an
incongruity in this situation. All these judges are (presumably)
reasonable jurors. Yet, the magistrate judge and district judge
found I am not procedurally barred and that no reasonable juror
could debate otherwise (App. 27a,29a). Two circuit judges found I
am procedurally barred and that no reasonable juror could
debate otherwise (App. 31a). A third judge agrees with the
district court. Someone is being unreasonable.
This situation occured because the finding that a "district
court's decision is debatable" is entirely subjective. This is
the point I wish to raise in reason II.

6

II. Both appellants and the court of appeals would benefit from
additional guidance this Court can provide on what constitutes
a successful argument that a district court's decision is
debatable.
This Court has determined that at the COA stage, the only
question is whether the applicant has shown that "jurists of
reason could disagree with the district court's resolution of
his constitutional claims, or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed
1
further."
"A court of appeals should limit its examination at the [COA]
stage to a threshold inquiry into the underlying merit of the
claims, and ask only if the district court's decision was
debatable." Ibid.
"A claim can be debatable even though every jurist of reason
might agree, after the [COA] has been granted and the case has
received full consideration, that petitioner will not prevail."
Ibid.
"When a courtgof appeals properly.applies the [COA] standard
and determines that a prisoner's claim is not even debatable,
that necessarily means the prisoner has failed to show that his
claim is meritorious." Ibid.
What exactly does an appellant present to a court in order
to meet this bar of showing that the ...district court's decision
is debatable?

1) Buck v. Davis, 137 S. Ct. 759,773 (2017), citing Miller-El v.
Cockrell, 537 U.S. 322, 123 S. Ct. 1029, 154 L. Ed. 931 (2003)

7

I understand this Court wants to give the court of appeals
wide discretionary power to grant or deny COAs, and to that end
avoids anything too specific. However, this entirely subjective
approach leaves appellants - and in this case even the courts with a destination but no .road to get there.
Appellants must show a claim is not meritless (non-debatable)
that it is at some level meritorious (debatable), but without the
court of appeals considering whether the appellant would ultimately
succeed on those merits. So, what distinguishes between a
meritless-non-debatable claim and a meritorious-debatable claim?
Here this Court can provide additional guidance that would affect
appellants seeking a COA nationwide. This will help keep appellants
from wandering aimlessly, and help the court of appeals more
consistently determine who has arrived at the intended destination.
In looking for a road between meritless and meritorious,
I see a similar standard in civil litigation when a party attempts
to overcome a motion for summary judgment. One court called it
"the 'put up or shut up' moment in a lawsuit, when a party must
show what evidence it has that would convince a trier of fact to
accept its version of events."

This looks a lot like showing a

district court's decision is debatable. Both standards ask, "Can
a reasonable juror argue the claim before a trier of fact?"
2) Schacht v. Wisconsin Dep't of Corr. , 175 F.3d 497,504 (7th
Cir. 1999); see also Cleotex Corp. v. Catrett, 477 U.S. 317
106 S.Ct. 2548 (1986)------------------ ---------------------

8

We need a framework with which to make the argument that a
district court's decision is debatable. Usually courts express
such frameworks in "prongs." For example, this Court could require
an appellant to:
(1) Make a substantial showihggof the denial of a
constitutional right, [per 28 U.S.C. §2253()c)(2) ]
(2) State facts supported by the record in defense
of that claim, [thereby showing a reasonable juror
has something with which to argue]
(3) Be entitled to relief IF those facts sufficently
support the claim, [with no determination that they
do; just that relief could be granted if they did]
Then the court of appeals can conduct a threshold inquiry!:
into the underlying merits using these three prongs to distinguish
between a meritless and meritorious claim. If an appellant meets
all three

the claim is debatable and a COA is issued. If an

appellant failed to make a substantial showing of the denial of
a constitutional right, or made a substantial

showing but failed

to state supporting facts, or both made a substantial showing and
stated supporting facts but would not be entitled to relief, then
the court of appeals would deny to COA - and the court could
identify where the appellant ran off the road; rather than give
the all too common "COA denied" without explanation.
Finally, if an appellant believes the court of appeals
wrongfully denied a COA, he can present clear and convincing
evidence to this Court that he has met all three prongs to obtain
a COA.
I do not expect this Court to adopt this example, but I
feel something from this Court along this line would help.

9

III. The Supreme Court should exercise its supervisory power and
determine if the Fifth Circuit erred by denying a certificate
of appealability (COA)_when I have shown clear and convincing
evidence with which a reasonable juror can argue the district
court's decision is debatable.
Having shown in reason I & II how inconsistent the lower
courts can be in denying ,a COA, I ask this Court to review the
following claims.
The facts I present for each claim are not meant to show
that I should be granted relief; rather they are only meant to
demonstrate what a reasonable juror could use in arguing the
district court's decision is debatable.
1.

Did my conviction violate my right against double
jeopardy?

TEX. PENAL CODE §21.02(e) states:
A defendant may not be convicted in the same criminal
action of an offense listed under §21.02(c) when the
victim is the same as an offense alleged under §21.02(b)
unless the allegation is charged in the alternative,
occured outside the time period alleged under §21.02(b),
or is considered by the trier of fact to be a lesser
included offense.
The jury convicted me of two offenses: Continuous Sexual
Abuse of a Child, §21.02(b), and Sexual Performance by a Child,
§43.25 - an offense listed under §21.02(c). Both offenses allege
the same victim and time period. The offense under §43.25 was not
charged in the alternative or as a lesser included offense.
The Texas Legislature prohibited this kind of conviction
under §21.02(e). Offenses under §21.02(c), such as §43.25, are to
be used in proving guilt of §21.02(b) and cannot be charged as
seperate counts when the victims and time periods are the same.

10

2.

Was I convicted on a less than unanimous verdict?

Count 1 of the jury charge lists two children seperated by
the disjunctive "and/or" (CR 182-185)^. This Court has held that
two or more victims cannot be listed under a single count using
the disjunctive, see Schad v. Arizona, 501 U.S. 624 (1991); Jones
U.S., 119 S. Ct. 2090 (1999). Using the disjunctive allowed for
a less than unanimous verdict, e.g. half the jury could believe
one child was a victim while the other half could believe the
other child was a victim.
The likelyhood of a mixed verdict increased with the
prosecution's instruction to the jury that they did not have to
O

agree on who was a victim (8 RR 11-12) . Further, trial counsel
noted in his poll of the jury that sever.il members indicated they
did not believe M.P. was a victim. (While neither child testified
at trial, the jury saw 1 video interview with S.T. and 2 with M.P.
In the first with M.P. she does not describe any kind of abuse;
and while in the second she does, it is followed by the statement
that her mother told her what to say.)

3)CR dhd RR refer to the Clerk's Record and Reporter's Record.
I apologize to this Court, but I could not obtain a copy of
either record to include in the appendix. The full record
costs over $8,000 and I don't even have a couple hundred with
which to pay the court fees.

11

3.

Did ray trial attorney have a valid strategy for not
offering S.T.'s attendance record into evidence?

The Magistrate Judge wrote:
[C]ounsel had a valid legal strategy for not obtaining
his own copy of the attendance records. The State
alleged that the offenses occured on or about a certain
date; thus, the specific date was not an issue. The
parents would not establish a specific date. Counsel
thus doncluded that the records did not have any
evidentiary value under the circumstance. (App. 23a)
The magistrate judge incorrectly states that a specific date
could hot be established. An exact date is established twice. First,
during the video interview of S.T. on May 19th, she repeatedly
uses the word "yesterday" to describe the events that happendd.
Second, Linda Engelking testified that S.T. told her on May 19th
that the acts occured "yesterday" (3 RR 214). S.T.'s attendance
records show she was absent from school on May 18th.
Originally, counsel told me this evidence would be our™
"Perry Mason moment." Then, he relied on the prosecution to admit
the records, and those records omitted May 18th. Now

counsel

claims the evidence that S.T. was absent May 18th/has no value
because the charge uses the language "on or about."
But, counsel also states his strategy was to show that "the
complaintants were not credible ... and there was a great probab­
ility that their 'memories

of the events were either false or

implanted" (T.S. Affidavit #11). The attendance records support
that strategy by helping to establish reasonable doubt.
Consider the other evidence on the record: S.T.'s mother,
angry with me for not allowing her to attend a fidid trip, dreams
I molested her daughter (5 RR 44); she wakes up and scolds her

12

daughter "until she tells the truth" (3 RR 216); she takes S.T.
to a local advocacy center where a forensic interviewer and
police detective question the 5-year-old for nearly 6 hours
before turning on a video camera (5 RR 50-51); the interviewer
admits to asking questions she "hoped would validate in the minds
of each child that they were victims of abuse" (4 RR 192-194);
S.T. states the acts occured "yesterday [May 18th]"; and her
attendance records show she was absent May 18th.
Altogether theSe facts show how the attendance records have
tremendous evidentiary value. It directly impacts the "probability
that [S.T.'s] 'memories* of the events were either false or
implanted." Therefore, counsel's failure to offer the complete
record constitutes ineffective assistance.
4.

Were the prosecutor's closing arguments so egregious
that they rendered the trial fundamentally unfair?

This Court has held that "when the prosecutor makes a
deliberate attempt to mislead, or engages«in conduct sufficiently
egregious that it infects a trial with unfairness, a due process
violation has occured." Miller v. Pate, 386 U.S. 1 (1967).
The Fifth Circuit has outlined 4 types of proper argument
a prosecutor may make during closing arguments, see Buxton v.
Collins

925 F.2d 816,825 (5th Cir.). I cite 9 different ways

the prosecutor acted improperly, any one of which would be
sufficient to warrant reversal. By denying a COA, the court of
appeals effectively argues all 9 could not be debated, thereby
sanctioning the prosecutor's conduct.

13

During closing arguments the prosecutor:
• Alluded to evidence that was not adduced at trial.
(8 RR 48-50,56-77). U.S. v. Gallardo-Tapero, 185 F.3d
307 (5th Cir. 1999)
!--------- ------• Interjected her own opinion as to the veracity of the
defendant (8 RR 9,48,57). U.S. v. Anchondo-Sandoval,
910 F.2d 1234 (5th Cir. 19901
• Argued guilt based on the bad character of the
defendant (8 RR 45,49-50,53,57-59). Washington v.
Hofbauer, 228 F.3d 687 (6th Cir. 200175
• Made statements presupposing defendants guilt.
(8 RR 51). U.S. v. Tomblin, 46 F.3d 1369 (5th Cir.
1995)
--------------------------• Interjected her own personal opinion as to the
credibility of witnesses (8 RR 55,58,59).
U.S. v. George. 201 F.3d 370 (5th Cir. 2000)
• Conveyed to the jury that she possesed specialized
knowledge about contested factual issues (8 RR 55-56)
Jackson v. State, 17 S.W.3d 664 (Tex.Crim.App. 2000)
• Drew inferences from the decision not to call
witnesses available to both sides (8 RR 51-52).
U.S. v. Virgen-Moreno, 265 F.3d 276 (5th Cir. 2001)
• Attempted to bolster a victim's story by stating
it had not changed over time (8 RR 51).
Washington, supra.
• Claimed everyone in the courtroom wanted the jury
to find the defendant guilty (8 RR 45).
Borjan v. State, 787 S.W. 3d 52 (Tex.Crim.App. 1990)
5. Did the changes made to the discovery agreement after
I signed it violate my right to due process?
Sometirae.-after I signed the discovery agreement, someone took
a pen and hand-wrote in waivers of the notification rights under
TEX. CODE CRIM. PROC. §38.072, §37.07, §38.37, and TEX. R. EVID.
§404(b). (CR 29-30). I did not agree to waive these rights as
can be seen by my signature on the final page. The lack of any
notification had a significant impact on the defense's ability

14

to prepare its case. We were not notified of several extraneous
matters the prosecution introduced, and therefore were not prepared
to rebut them.
In response to this claim, the magistrate judge writes that
I offered nothing other than conclusory allegations and bald
assertions (App. 24a). I do not understand this ruling. I have
cited precisely in the record, pages 29 and 30 of the Clerk's
Record, where the changes were made. This is neither a conclusory
allegation nor a bald assertion. It is a material fact. That a
defense cannot be properly prepared when notifications are not
given in compliance with the law should be self evident.
This Court has held that "under the due process clause of
the 14th Amendment, criminal prosecutions must comport with
prevailing notions of fundamental fairness." California v.
Tombetta, 467 U.S. 479,485-486 (1984). This (criminal?) act
poisoned the trial before it even began. It is impossible now to
obtain the evidence the defense would have used in rebuttal. For
this reason, this error should be treated as a structural error
not subject to a harm analysis. The act of altering the discovery
agreement violated any possible definition of "fundamental
fairness."

15

CONCLUSION
For these reasons, a writ of certiorari should issue to
review the Fifth Circuit's denial of a certificate of appealability.

Respectfully submitted,

Joseph P. Garbarini
TDCJ #1754849
McConnell Unit
3001 S. Emily
Beeville, TX 78102

16

